<html>
<title> - LIGHTSQUARED: THE IMPACT TO SMALL BUSINESS GPS USERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      LIGHTSQUARED: THE IMPACT TO 
                        SMALL BUSINESS GPS USERS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 12, 2011

                               __________


                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               


            Small Business Committee Document Number 112-039
          Available via the GPO Website: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
71-500                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
                       ROBERT SCHILLING, Illinois

               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                        JANICE HAHN, California
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Graves, Hon. Sam.................................................     1
Velazquez, Hon. Nydia M..........................................     2

                               WITNESSES

Dennis B. Boykin IV, Managing Principal, DB4 Consulting, LLC, 
  Leesburg, VA...................................................     3
Rick Greene, Precision Agronomy Manager, MFA Incorporated, 
  Columbia, MO...................................................     5
Jeff Carlisle, Executive Vice President, LightSquared, Reston, VA     7
Tim Taylor, President & CEO, FreeFlight Systems, Irving, TX......     9

                                APPENDIX

Prepared Statements for the Record:
    Dennis B. Boykin IV, Managing Principal, DB4 Consulting, LLC, 
      Leesburg, VA...............................................    28
    Rick Greene, Precision Agronomy Manager, MFA Incorporated, 
      Columbia, MO...............................................    34
    Jeff Carlisle, Executive Vice President, LightSquared, 
      Reston, VA.................................................    36
    Tim Taylor, President & CEO, FreeFlight Systems, Irving, TX..    62
Questions for the Record:
    Mulvaney questions for the record............................    70
    Schilling questions for the record...........................    72
Answers for the Record:
    Carlisle responses to Mulvaney questions for the record......    73
    Carlisle responses to Schilling questions for the record.....    78
    Carlisle supplemental responses to Mulvaney questions for the 
      record.....................................................    78
Additional Materials for the Record:
    American Farm Bureau Federation Statement for the Record.....    82
    ASABE/ASA Joint Comment to the FCC...........................    85
    MFA-GPS Facts and Figures--Revised...........................    87


          LIGHTSQUARED: THE IMPACT TO SMALL BUSINESS GPS USERS

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                  House of Representatives,
                       Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:02 p.m., in Room 
2360, Rayburn House Office Building, Hon. Sam Graves [Chairman 
of the Committee] presiding.
    Present: Representatives Graves, Bartlett, Chabot, King, 
Mulvaney, Tipton, Herrera Beutler, West, Hanna, Schilling, 
Schrader, Cicilline, Owens, and Hahn.
    Chairman Graves. Good afternoon, everyone. We will bring 
this hearing to order. I want to thank all of our witnesses for 
being here today. This is a very important hearing. I know some 
of you traveled a ways, and I appreciate you being here.
    Today we will hear about how LightSquared's proposal is 
going to impact the ability of small businesses to access the 
global positioning system, GPS. Thousands of small businesses 
rely on an accurate GPS signal for their day-to-day operations, 
and potential interference could severely handicap or impair 
those businesses.
    LightSquared aims at providing wireless 4G broadband 
coverage to 260 million Americans in both rural and urban 
communities by 2015. I agree that we need to find innovative 
ways to provide high-speed Internet access to underserved 
areas. Access to high-speed Internet provides small businesses, 
especially those located in rural communities, with the 
opportunity and resources to compete in an electronic and 
global marketplace. However, such innovation should not 
jeopardize the currently established systems, including GPS, 
and add more unnecessary burdens to those who use them.
    Since it was first launched, taxpayers have invested over 
$35 billion in the GPS system. This national asset has become 
an integral part of our economy. We can see the value-added 
benefits in a variety of sectors. From a safer and more 
reliable energy grid to precise agriculture mapping, nearly 
every industry has benefited from this technology. Moreover, 
recent studies estimate that GPS supports over 3 million U.S. 
jobs and contributes over $3 trillion in economic activity.
    Federal test results from LightSquared's proposal showed 
significant interference on all types of GPS receivers. This 
alarmed many small businesses that could be required to replace 
or retrofit their current GPS system. This would be an enormous 
cost to small business. Even though LightSquared is committed 
to spend $50 million to retrofit Federal GPS devices, this does 
nothing for the nearly 1 million small businesses that are left 
to pay the bill that will easily cost billions of dollars.
    Moving forward, I am confident that we can find a solution 
to provide more broadband to rural areas while not jeopardizing 
any small business GPS users. Again, I want to thank all of our 
witnesses for their participation. And I now yield to Ranking 
Member Velazquez for her opening remarks.
    Ms. Velazquez. Thank you, Mr. Chairman. Good afternoon, and 
thank you to all the witnesses for being here today. Expanding 
access to broadband is not just about technology. It is about 
job creation and growth. Through its adoption, companies can 
reach new markets across the globe while reducing costs at 
home. In fact, the number of jobs depending on broadband and 
information technology is expected to grow by 25 percent over 
the next 10 years. This makes the expansion of broadband 
connectivity a critical priority and is the main reason the 
administration set a target of reaching 98 percent of the 
population through such technology.
    Today we will examine a proposal that will advance this 
objective. This plan, which centers on constructing a hybrid 
ground-based satellite network, would have broad benefits. 
Beyond its immediate payoff, widespread broadband adoption will 
mean new economic opportunity for communities across the 
Nation, particularly rural America. For individuals looking to 
launch a new enterprise, broadband offers lower start-up costs. 
This is especially important now as many dislocated workers are 
looking to entrepreneurship as a way to replace lost income.
    For the established small business, high-speed Internet can 
expand a firm's client base using a company Web site, social 
networking, or other forms of online advertising. Firms can 
utilize voice and video communication to connect with customers 
around the world and reach previously untapped markets. They 
can store data on line and access office productivity tools.
    While the proposal we are considering today shows promise 
to accomplish these goals, we have to consider its interference 
potential. One example is GPS, which serves a critical role in 
aviation safety and efficiency. In fact, the Department of 
Transportation's NextGen program focuses on modernizing this 
platform, and it is expected to create 160,000 jobs in 4 years, 
the same number the aviation industry lost in a decade.
    With 360,000 GPS-equipped aircraft and over three million 
jobs, we must ensure interference does not undermine this 
growing industry. Not only must we address the aviation 
industry's concerns, we also need to investigate the plan's 
small businesses impact. Business owners in a variety of 
trades, like precision agriculture and construction, rely on 
GPS technology for its cost-saving benefits. Small farmers use 
GPS to save $5 billion annually on water and fertilizer costs. 
Inaccurate information or expensive equipment upgrades caused 
by interference could result in small business job losses.
    Recognizing these concerns, it is imperative to test this 
plan's technology. Doing so will ensure small businesses are 
not left with costly burdens. Regardless if this new plan is 
ultimately adopted, we must continue to push forward with R&D 
and evaluation. At some point, either through the current 
effort or subsequent endeavors, we will be able to mitigate GPS 
interference successfully and bring the benefits of broadband 
to nearly all small businesses and their customers. We should 
not let a complication that has multiple solutions hinder 
progress towards nationwide connectivity.
    Time and again, advanced technologies have been a 
springboard for growth. From mobile phones to biotechnology to 
the Internet, new technologies have brought jobs and 
prosperity. With this in mind, I look forward to hearing how we 
can further foster innovation.
    Thank you, Mr. Chairman.
    Chairman Graves. If Committee members have an opening 
statement prepared, I would ask that they submit it for the 
record. And just to explain to you the timing system, each of 
you have 5 minutes, and the lights will indicate green for that 
time period. When you are down to a minute it goes yellow, and 
then red when you run out of time. If you run out of time, it 
is not that big a deal, just don't go too far over.
    This hearing has obviously--or this subject matter has been 
heard in a lot of Committees on the Hill so far, Small Business 
Committee, because it has such an impact here. But the Armed 
Services Committee, Transportation Committee, the Science and 
Technology Committee, the Agriculture Committee will probably 
have a hearing on it. So it is of huge importance.
    With that, we will go to our witnesses now so you each can 
give your statements, and I am going to turn to Representative 
West from Florida to introduce our first witness.
    Mr. West. Thank you, Mr. Chairman and Ranking Member. Our 
first witness will be Mr. Dennis Boykin IV, the founder and 
manager of DB4 Consulting. Mr. Boykin is a small business 
owner, a veteran, licensed pilot, and a proud aircraft owner. 
He is an Army veteran, an artilleryman with whom I served 
together in 1991 in Desert Shield, Desert Storm, in the 5th 
Field Artillery, and Dennis, it is great to see you again, and 
hopefully all is well with your family. He has been flying for 
over 30 years. Mr. Boykin will be testifying on behalf of the 
Leesburg Executive Airport Commission. Mr. Boykin.

    STATEMENTS OF DENNIS B. BOYKIN, MANAGING PRINCIPAL, DB4 
          CONSULTING, LLC, LEESBURG, VA, ON BEHALF OF 
    THE LEESBURG EXECUTIVE AIRPORT COMMISSION; RICK GREENE, 
PRECISION AGRONOMY MANAGER, MFA INCORPORATED, COLUMBIA, MO, ON 
BEHALF OF THE AGRICULTURE RETAILERS ASSOCIATION; JEFF CARLISLE, 
  EXECUTIVE VICE PRESIDENT, LIGHTSQUARED, RESTON, VA; AND TIM 
  TAYLOR, PRESIDENT & CEO, FREEFLIGHT SYSTEMS, IRVING, TX, ON 
         BEHALF OF THE AIRCRAFT ELECTRONICS ASSOCIATION

                 STATEMENT OF DENNIS B. BOYKIN

    Mr. Boykin. Chairman Graves, Ranking Member Velazquez, 
members of the Committee, and old Army comrades, thank you for 
the introduction and thank you for the opportunity to address 
this critical issue today.
    As Congressman West noted, critical to me not only as a 
small business owner who owns high-precision GPS in order to 
keep my aircraft safe and, more importantly, keep the people 
underneath my aircraft safe, but in a leadership position as 
leader of the Leesburg Executive Airport, concerned about the 
welfare of our airport because we run a business.
    I have three concerns regarding this potential interference 
with high-precision GPS receivers: my family's safety, the 
costs associated with the proposal, and the impact on our 
general aviation infrastructure. I have spent nearly $40,000 on 
GPS equipment installations over the last 8 years in two 
airplanes. I am not unique in my community. Many of us have 
spent a lot of money to increase our margin of safety while 
running our businesses and flying our airplanes. And make no 
mistake about it, GPS is a matter of life and death. This is 
not hyperbole. I am a combat veteran, and I know something 
about life-or-death situations, and although I know you hear a 
lot of hyperbole sometimes about this issue, GPS is critical 
not just to business but to life.
    First let's talk about my airport in Leesburg. We have a 
saying out there, as I serve the town and its residents in 
running that airport, that airports are not about airplanes, 
they are about commerce. Our airport provides an interstate 
commerce benefit, bringing over 200 jobs and $80 million a year 
in economic impact to Leesburg and Loudoun County, Virginia. We 
have over 250 aircraft based at our field, and nearly all of 
them are GPS equipped.
    Now, the FAA estimates, if LightSquared deploys the system 
as tested at Holloman Air Force Base a few months back, they 
are estimating a $440 million a year negative economic impact 
to general aviation, 800 lives lost per year, and $22 billion 
in opportunity costs if NextGen isn't deployed. That is their 
numbers, not mine. My estimate is a little more personal. I 
don't want to have to go explain to residents in Leesburg and 
to the town council why the airport is causing trouble.
    In my second role managing a business, I am hearing 
LightSquared's claims that their system won't interfere with 
GPS. Then I read Mr. Russo's testimony to the House Armed 
Services Committee Subcommittee on Strategic Forces that says 
exactly the opposite. LightSquared claims they have a filter--
in fact Mr. Carlisle I think has one here with him--that will 
magically solve the problem that they caused, in my opinion. Am 
I expected to bear the expense of the certification, 
installation, downtime, and test flights surrounding these 
filters? Mr. Carlisle will tell you not, that Garmin should 
provide that. Oh, by the way, the FAA hasn't certified these 
yet.
    Speaking of businesses, let's talk about environmental 
impacts. Recently I took a business trip to Florida to an Army 
conference. Made that trip on a direct routing, thanks to GPS. 
Saved an enormous amount of fuel not following the airway 
routes. This is the next--this is the entire precept behind 
NextGen, direct routing. With any impact on GPS, we lose those 
environmental improvements in the reduced carbon footprint of 
each flight.
    And, finally, I am concerned about the safety of every 
flight. GPS signals enhanced by wide-area augmentation service 
have created a precise flight environment today that is 
unrivaled in our history. Flight is so much safer today than 
when I learned to fly 30 years ago, I am no longer 
uncomfortable in getting up in bad weather.
    Now, let me put you in an entirely likely scenario. Imagine 
yourself flying in my airplane at night, returning from a trip, 
we are in the clouds, I am on a GPS/WAAS approach to runway 17 
at Leesburg, and the screen goes blank because there is a 
harmonic attenuation from the LightSquared cell tower I just 
flew over. Now, the engineers will tell you that cell phone 
towers only impact ground receivers. Every general aviation 
pilot on the East Coast will tell you otherwise. And don't ask 
me why I know this, but up to about 5,000 feet you can get a 
good cell phone signal. I just happen to know that. There is 
absolutely no reason to create this risk to life and property 
without proper testing and without proper coordination.
    Now, we are going to hear a lot of testimony about how 
folks have fixed the problem already and there isn't an issue. 
Frankly, I will remind everybody here that we are in a 
Committee meeting chaired by someone from Missouri, and they 
have a great saying in Missouri, ``Show Me.'' And I would like 
somebody to put together a test that puts multiple base 
stations, multiple handsets out on that test range at White 
Sands in Holloman, and make sure this thing really does work 
before we put lives at risk.
    I have a little bit of experience. When I used to work for 
the Motorola Corporation I had to get trained in RF 
propagation. I am not an engineer, but I know that things can 
interfere with each other, and I hope this Committee would have 
something to say about how that works.
    I thank you for your time and I thank you more importantly 
for your service to our great Nation.
    [The statement of Mr. Boykin follows on page 28.]
    Chairman Graves. Thank you, Mr. Boykin.
    Our next witness is Mr. Rick Greene. Rick is a precision 
agronomy manager for MFA in Columbia, Missouri. In his role, 
Rick helps family farmers utilize precision agriculture 
technology to increase crop yields and efficiency. Rick is 
testifying on behalf of Agriculture Retailers Association. 
Thanks for being here.

                    STATEMENT OF RICK GREENE

    Mr. Greene. Thank you, Chairman Graves and Ranking Member 
Velazquez and members of the Committee. I appreciate the 
opportunity to appear before you today. My name is Rick Greene, 
I am here to testify on behalf of the Agriculture Retailers 
Association, a trade association which represents ag retailers 
and distributors of crop inputs, equipment, and services. ARA 
members are scattered throughout all 50 States and range in 
size from a fairly small family business to a large cooperative 
with multiple locations.
    I am a precision agronomy manager for MFA Incorporated, a 
cooperative built by farmers for farmers. Our core business 
includes sales, service, and inputs of seed, fertilizer, 
precision agronomy, grain, feed, and livestock supplies.
    I began my agricultural journey in 1995 when my father 
first purchased a yield monitor with GPS. During that time it 
was a struggle to operate this new type of technology and cope 
with the inaccuracies of GPS. While at Iowa State, as accuracy 
started to improve, I came to love what precision agriculture 
can do for farming, by preserving the environment, minimizing 
inputs, maximizing yield to give our farmers a greater return 
on their investment.
    So what is precision agriculture? Precision agriculture is 
using the latest technology to provide sound agronomic 
recommendations in a timely fashion in order to maximize yield, 
manage inputs, preserve the environment to ensure farmers with 
a sustainable way of farming.
    So, do some of your areas of your lawn grow better than 
others? Farm ground is the same way, only on a larger scale. 
Since then, GPS technology has evolved exponentially. Fleet 
vehicles use GPS for logistical tracking to minimize fuel 
consumption. Tractors drive themselves within one inch worth of 
accuracy to minimize overlap. Planters and sprayers turn off 
individual sections and automatically reduce overapplication of 
inputs. On-the-go sensors detect how much nitrogen a plant will 
require. River levees are surveyed in two-thirds of the time 
that it takes traditional surveyors. Aerial applicators vary 
nitrogen rates on the fly to reduce runoff and increase plant 
uptake. Irrigation systems vary water rates based on soil 
characteristics to reduce water waste. And the list goes on.
    We would not be able to perform any of these functions 
without the high-accuracy GPS. Jess Lowenberg with Purdue 
University did a study back in 2004 using an 1800-acre model 
farm, and he found that a farmer that uses high-accuracy GPS 
will decrease his hours of operation by 17 percent. That 17 
percent is not only operation but it is also a decrease in 
fuel, maintenance, and inputs like seed, pesticide, and 
fertilizer. Times are changing, and the producer needs to be 
more efficient in order to combat global competition.
    Bruce Erickson, with the Purdue University, also did a 
study on economic adoption of precision farming technologies. 
From 2002 prices are up 350 percent in commodities, seed prices 
are up 266 percent, and fuel and fertilizer is up 270 percent. 
Efficiency and increased productivity is the key to surviving 
in this global market.
    According to the United Nations Food and Agricultural 
Organization, the world population could rise to 8.2 billion 
people in 2030, which will require 50 percent increase in food 
production over the next 20 years in order to feed the global 
demand. The only way we are going to be able to achieve this 
goal is by using high-accuracy GPS, biotechnologies, and proper 
management.
    Precision agriculture industry has over 400,000 high-
accuracy receivers valued at $13,000 and a replacement cycle of 
10 to 15 years, and adds an approximately $19.9 billion per 
year of value to the grower. MFA has over 700,000 acres in GPS 
nutrient management, $9.5 million--or 9.5 million acres covered 
with high-accuracy RTK coverage, and has almost $20 million of 
GPS equipment sold to the farmers that will be directly 
affected by the implementation of LightSquared's terrestrial 
component.
    Since 2005, MFA has seen a 600 percent increase in sales 
and adoption rate of 40 percent of our customer base. It is 
like asking the American population to switch their analogue 
TVs to a $13,000 digital TV when LightSquared throws a switch. 
LightSquared must not be allowed to broadcast their signal in 
the upper and lower bands of the GPS until a feasible and 
economic resolution is found.
    To conclude, it is the accuracy of GPS that makes the 
technology important. Ideally, a solution will be found that 
allows GPS and wireless broadband to coexist, but LightSquared 
and GPS providers will have to work together. We believe 
farmers and ranchers and GPS companies should not have to bear 
the additional financial burden in resolving this issue. Thank 
you.
    [The statement of Mr. Greene follows on page 34.]
    Ms. Velazquez. It is my pleasure to introduce to the 
Committee Mr. Jeffrey Carlisle. He is executive vice president 
for Regulatory Affairs and Public Policy for LightSquared. 
Prior to joining LightSquared, Mr. Carlisle served as deputy 
chief and, later, chief of the FCC's Wire Line Competition 
Bureau where he managed the development of the Commission's 
broadband policies. He has over a decade of experience in 
telecommunications law. Welcome.

                   STATEMENT OF JEFF CARLISLE

    Mr. Carlisle. Thank you very much. Mr. Chairman, Ranking 
Member, members of the Committee, thank you for having me here 
today to talk to you about LightSquared and GPS. And one thing 
that is very important to understand up front, and my 
colleagues on the panel here are going to very clearly make the 
case that GPS is important to them, and nobody in my company 
doubts that one bit. In fact, GPS is crucial to us. We have to 
have a functioning GPS system in order to coordinate the 
signals on our network, and the people who bring devices to our 
network are all going to have GPS devices, GPS receivers built 
into their devices. So no debate about that GPS is important, 
it is crucial to the American economy, we use it every day, and 
it is important to safety of life.
    There is another important issue, though, that is 
particularly relevant to this Committee, and that is the fact 
that small businesses suffer today from a lack of choice in 
their ability to get wireless services. The Committee itself 
has recognized this numerous times. LightSquared is building a 
network that won't just bring one competitor to the market, but 
will bring dozens of competitors to the market. We already have 
over 17 business partners who are waiting for us to have our 
network ready to go so they can start selling broadband 
services to end users. The effectiveness is to enable them to 
lower prices to end users and small businesses, the people who 
need it most; better connectivity and extension of connectivity 
to rural areas which historically have been on the short end of 
the stick when it comes to wireless networks, and will 
definitely be so when it comes to broadband networks. And this 
is a problem that we have to deal with, make no mistake. The 
lack of effective broadband infrastructure makes America 15th 
in the world in terms of broadband adoption.
    And why is this important overall? These consume 24 to 25 
times more data than a regular cell phone. That was just 3 to 4 
years ago before that started to be the effect. In less than 2 
years we will have too many devices and too little spectrum. We 
are the only realistic new source of spectrum within that time 
frame. And let's be clear: There will always be issues with 
existing uses of spectrum when you have a new network being 
built. With 700 MHz, which was another band, it was wireless 
microphones. With here, it is GPS. With 800 MHz several years 
back, it was public safety.
    These issues can be solved. If we can't solve them, we 
aren't going to be able to provide services to the people who 
need them, and the real loser on that will be small businesses. 
They are the ones whose bottom line get hit the worst. ``Not in 
my backyard'' does not work in spectrum. There is not one piece 
of spectrum in the whole range that you can pick that will not 
have some sort of incumbent issue.
    So how do we solve the issue? I think, unfortunately, a lot 
of the commentary that you hear about this conflates our old 
proposal of starting in the spectrum closest to GPS with the 
proposals we have on the table now, where we will offer our 
service on the spectrum farthest away, and this will address 
the issue for over 99 percent of GPS devices, simply by 
physics. They don't look that far down into our spectrum, and 
that covers cellular devices, personal navigation devices, it 
covers aviation devices. And to show that effect, the 
government testing itself, which was separate from the industry 
testing on this, concluded that initial test results 
demonstrated that some applications, for example aviation, were 
able to operate with little to no degradation when we were 
operating on the spectrum farthest away from GPS. That has been 
established for months now.
    So what are we left with? We are left with precision 
devices. So we are going from 400 million devices across the 
country to something less than 750,000, perhaps as few as a 
hundred thousand. These are the ones that are designed to get 
to centimeter-level accuracy and are used in agriculture, 
surveying, and construction, and I think there is room for 
skepticism in terms of the claims as to how hard this issue is 
to solve. For months now, we have heard about there is not 
enough room in the devices; it would take a backpack-size 
filter to fix it; it would cost too much; it is going to take 
too long; it is going to take years and billions of dollars.
    Well, I have a precision device right here, actually. It is 
from an unnamed manufacturer; we bought it on e-Bay, it is 
right there. As you will see when you take the dome off, there 
is room in this device, and this is the antenna. This is where 
you place the filter for the antenna. It is right here. It is 
this little square here. The filter that we have developed in a 
matter of days at a cost of $6 per unit is right here.
    Now, our solution isn't going to be a solution for every 
receiver. Many receiver manufacturers will come up to--will 
have to come up with their own solutions. But what this is, is 
a proof of three concepts: It can be done; it can be done 
inexpensively; and it can be done quickly. I also think the 
issue of bearing the cost for this proposal is also something 
that is misunderstood.
    Just last August in 2010, Garmin issued a voluntary recall 
of 1.2 million GPS receivers that had battery issues. Their 
stock price declined about a cent the day they announced that. 
So this is an issue that comes up in private industry all the 
time. Manufacturers who have put devices out there, that are 
subject to this kind of interference when they shouldn't be, 
should bear some of the responsibility. And we have already 
borne a significant amount of the cost of addressing the issue 
for hundreds of millions of devices, and I look forward to 
receiving your questions. Thank you.
    [The statement of Mr. Carlisle follows on page 36.]
    Chairman Graves. Thank you, Mr. Carlisle.
    Our final witness is Mr. Tim Taylor, the president and CEO 
of FreeFlight Systems in Irving, Texas. His company 
manufactures aviation GPS navigation systems for commercial and 
military aircraft. He has over 35 years of experience in this 
industry. Tim is testifying on behalf of the Aircraft 
Electronics Association. Welcome and thanks for being here.

                    STATEMENT OF TIM TAYLOR

    Mr. Taylor. Chairman Graves, Ranking Member Velazquez, and 
members of the Committee, thank you for the opportunity to 
appear before you today to discuss the impact of small business 
GPS users in industry of the proposal from LightSquared. My 
name is Tim Taylor, and I am president and chief executive 
officer----
    Chairman Graves. Make sure your mike is on.
    Mr. Taylor. Is that better?
    Chairman Graves. There you go. That helps.
    Mr. Taylor. I am sorry. My name is Tim Taylor, and I am 
president and chief executive officer of FreeFlight Systems. 
Today I have the privilege of also representing the Aircraft 
Electronics Association. The Association represents more than 
1,300 aviation businesses worldwide, including avionics 
manufacturers, repair stations, distributors, and schools. Of 
these, more than 80 percent are small businesses.
    My company, FreeFlight Systems, is a manufacturer of 
avionics systems for commercial and military aircraft and was 
the first company to certify an airborne WAAS receiver. 
FreeFlight Systems specializes in NextGen avionics, GPS 
navigation systems, GPS/WAAS sensors, dynalink radios, and 
radar altimeters. Our entire industry has been working toward 
the implementation of GPS-based navigation, air traffic 
management, and landing systems for over a decade. This ongoing 
transformation of the Nation's airspace system, NextGen, is 
predicated upon the availability of ultra high-integrity GPS 
position information, which has, in turn, been made possible by 
some 30 years of work in GPS technology that lives on the very 
fringes of human engineering capability.
    All of this development has been accomplished with a 
consistent assumption of a certain level of protection of the 
GPS signal spectrum, one that long predates any of this recent 
debate.
    LightSquared has proposed a nationwide wireless broadband 
network that pours high-energy radio waves into the previously 
protected spectrum. We, like all Americans, support a low-cost 
nationwide wireless broadband network, but not one that 
compromises the safety and efficiency of the national air 
transportation system. Quick studies are being undertaken and 
quick decisions are being made. This is entirely incompatible 
with the requirements of safe airspace critical system design.
    I am reading of voluntary spectrum self-limitation, and I 
see reports of instant solutions to interference through the 
addition of a filter that was thrown together in the past few 
months. This is not how it works for us. The FAA estimates, and 
I would agree, no less than 10 to 15 years would be required to 
bring an amended product safely to the aviation marketplace, 
assuming no further changes to spectrum use.
    So my testimony today is not intended to support or deny 
the reports that have been submitted regarding the 
compatibility of the two systems. The record has more than 
enough evidence to draw a conclusion. My intent is to explain 
the aviation certification process and extreme cost to small 
business that any change to the aviation-certified GPS 
navigation and surveillance systems would cause.
    GPS satellites are low powered and a long way away. The 
signals we receive are less than the noise interference 
generated by the metal box we put the receiver in, but people's 
lives depend upon our ability to read that information and not 
get it wrong any more than once in every 10 to 1,000 million 
flight hours. If you have ever been on an aircraft landing in 
low-visibility conditions, you will appreciate this level of 
integrity, as do those who live close to airports.
    To expect the industry to maintain performance requirements 
like these in a rapid response mode to a significant noise 
environment change is entirely unreasonable. For example, in a 
stable requirements environment, we have been developing a 
replacement GPS for one of our older products for some 6 years. 
We are still about a year away from a certified GPS engine, and 
2 to 3 years away from a usable avionics system implementation. 
Approval of that system into real aircraft will take another 1 
to 2 years.
    I can categorically tell you I do not know if the new 
system will work in the most optimistic LightSquared plans that 
are on the table. I can tell you it will not work at all at 
LightSquared's FCC-approved transmission levels and spectrum. 
AEA member companies have been manufacturing, selling, and 
installing GPS navigators, surveillance, and emergency locator 
systems to the aircraft owners and operators for nearly 20 
years. These systems have been designed, manufactured, and 
certified to the government's technical standards to provide 
the aviation consumer with an assurance of usability and 
acceptability within the national airspace. Any efforts by 
LightSquared to generate a requirement resulting in costly 
recertification and retrofits of the already installed systems 
will directly and negatively affect the industry and the 
Nation's airspace.
    In closing, while we support the concept of a low-cost 
national wireless broadband system, no system, regardless of 
its anticipated benefit, can be allowed to compromise the 
safety and security of the national air transportation system. 
Changes that affect the national air transportation system 
require long-range planning, and we encourage LightSquared or 
any other company to participate in the aviation technical 
standards development process. RTCA and the FAA have been 
working towards NextGen for nearly 20 years. If neighboring 
technologies need changes in the aviation systems in order to 
be compatible, these companies need to work with the FAA and 
RTCA so that the next generation of aviation products might be 
designed and certified to be compatible with their future 
business plans once the current generation of products reaches 
the end of its service life.
    The idea that a new entrant into the marketplace can 
arbitrarily introduce a new product that immediately 
compromises aviation safety and security, while expecting the 
aviation industry to design, manufacture, test and certify, and 
install an aviation-compliant filter, is simply not realistic.
    Thank you for providing me this opportunity to address the 
Committee. I will be happy to answer any questions you may 
have.
    [The statement of Mr. Taylor follows on page 62.]
    Chairman Graves. Thank you, Mr. Taylor.
    Mr. Carlisle, I have a quick question on your receiver 
there you have got, which I have never seen a receiver that big 
before, but my question to you is: The filter that you held up, 
which you talked about you could fit inside there easily, the 
GPS antennas that I have on the aircraft that I fly are the 
same size as that filter, maybe just a little bit larger, so 
how is that going to fit in that antenna? And that includes the 
streamlined casing on it for the slipstream. I am just curious 
how that is going to--
    Mr. Carlisle. I am glad you asked that question because it 
allows an opportunity to really clear this issue up. This is a 
precision receiver that gets you down to centimeters for use in 
agriculture, surveying, construction. The type of receivers you 
are talking about in your plane are not that kind of precision 
receiver, all right? Under our proposal, which puts us at the 
bottom end of our band, under the minimum performance standards 
which are adopted internationally, we should be fine under 
that. The FAA is reviewing that. But all the testing of 
aviation receivers that was done by both the Federal Government 
and by industry shows that the aviation receivers perform much 
better than the minimum performance standard. So we are not 
talking about, under our current level of proposals, requiring 
any changeout--and let me repeat that because it is important--
any changeout of aviation receivers. If it was going to take us 
8 to 10 years to go through the certification process in order 
to do that, that would not be a commercially feasible business 
plan. So what we have proposed is the use of our spectrum that 
does not require any changeout of aviation receivers.
    Chairman Graves. Well, that brings us--and the problem I 
have is, and in your testimony you used the comment ``little to 
no degradation.'' The ``little'' is the part that bothers me. 
And you said just now in the question, you said ``should be.'' 
It is the ``should be'' that bothers me because in aviation we 
deal in zero tolerances.
    Mr. Carlisle. Uh-huh.
    Chairman Graves. Zero tolerances. So if there is any 
concern out there, we are going to end up having to retrofit 
and filter because it is zero tolerance. And what that is going 
to cost, you know, and I am very curious as to what--in fact, I 
want to hear from all the panel, you know, what we think this 
is going to cost in terms of that retrofit, because at least 
when it comes to aviation it has to be certified. If it has to 
be certified, that is when it gets really expensive.
    Mr. Carlisle. I absolutely agree with you, and if I can 
directly respond to that, that is absolutely true. And the fact 
is that we should only move forward if this can be done while 
absolutely assuring safety of life and aviation, all right? And 
we are working with the aviation community in order to do that. 
That is something that we believe is nonnegotiable, all right? 
Nobody in our company is running out to irresponsibly deploy a 
network that is going to cause issues with people, with air 
safety in the United States. That is not what we are about, and 
we are absolutely committed to making sure this will work and 
that the FAA is satisfied, that NTIA is satisfied, and FCC is 
satisfied on that front. And we have worked with FAA for years. 
We have worked with RT--we are members of RT--I am sorry, 
pardon me. We have worked with RTCA for years, we have been 
members for years on these issues, so we have put a lot of 
resources into making sure that happens.
    In terms of cost, again, we believe our proposals will take 
us in a direction where there will be no cost to aviation in 
order to accommodate the network, and that is where we want to 
be.
    Chairman Graves. How is that no cost, though?
    Mr. Carlisle. Because aviation receivers will not have to 
be replaced. We are taking all of the cost of solving the issue 
on our side, which is over $100 million, by the way.
    Chairman Graves. Mr. Taylor.
    Mr. Taylor. So, first of all, I would echo your comments on 
``little to no.'' We don't live in the world of ``little to 
no.'' We live in the world of certainties, as I said, measured 
in thousands of millions of parts, very, very, very high 
integrity and availability of our systems.
    I would also mention that many of the systems out there 
were developed back in the 1990s. I mean, there is a lot of 
aircraft systems. We as a company, have over 2,000, we know, 
systems flying that were developed in the 1990s. The 
requirements for noise interference testing on those was 
significantly less than the requirements levied on the modern 
receivers, so they certainly would have to be addressed, and I 
have no idea how they would work in this noise environment. No 
one has yet tested one.
    For the newer receivers, as we said, there is a very strict 
FAA requirement for noise. As I understand it, the proposal for 
LightSquared to use the lowest spectrum comes very, very close 
to the edge of that or crosses slightly that current noise 
requirement, and the concept that we are going to be okay 
because there is some margin in there, again, does not work for 
me. This is something that needs to be tested and evaluated, 
and it is not one field test, it is a very serious 
comprehensive series of regressive testing that will take a 
long, long time to accomplish.
    Chairman Graves. Mr. Boykin.
    Mr. Boykin. I don't know what the cost is. I will go back 
to testing, though, and it sounds--it all sounds good. But back 
to the ``Show Me'' concept, I will take you back to 1981 at a 
field in Arizona where a client of mine, when I worked for 
Motorola, was complaining about interference. I couldn't figure 
out why he couldn't talk to that repeater on the mountaintop 60 
miles away. You could almost see the mountain, but he couldn't 
talk to it with his 15-watt radio. Drove 2 miles back to 
Interstate 19 and found a crew from a large construction 
company that was operating in the 27 MHz band and asked them to 
key their radios every minute, drove back to my client's site 
and said, okay, let's try doing it now, and that is exactly 
what it was. My client was using a radio in the 450 MHz FM band 
for business. That is 400 MHz and 2 miles away, and that amount 
of electrical energy in the air interfered with a 60-mile 
transmission.
    I note from the chart Mr. Carlisle brings in that we are 
talking about a spectrum spread of 30 MHz between ground-based 
transmitters that I have to fly over. So I will just go back to 
the point, Mr. Chairman, that I spent over $2,000 a receiver to 
do my WAAS upgrade a few years ago. We are talking thousands of 
dollars for upgrades, if necessary. Let's get back to the 
testing. That is what really needs to get done.
    Chairman Graves. Mr. Greene.
    Mr. Greene. Well, I will concur with the two gentlemen, 
Boykin on my left and Taylor on the end, with the fact that we 
need to have a lot more testing done on this just to make sure 
we don't go through and interfere. Being in the agriculture 
industry, I do go ahead, I do recognize that receiver, and that 
receiver is a lot of the same type of size that we have for our 
high-accuracy RTK.
    Now, I went through and actually crunched some numbers. MFA 
has approximately 250 high-accuracy GPS units across the State, 
and we cover approximately 1 million acres with those high-
accuracy RTK antennas. Assuming that LightSquared's filter is 
going to cost around $800, to go and retrofit or basically to 
purchase those filters is going to cost roughly $200,000, and 
$200,000 for the filters and approximately $200,000 for the 
resource. The resource is the personnel, the truck, the fuel 
expenses to go around and take care of that. Time frame in that 
period, will take at least 1 year's worth of time in order to 
go through and do that, and that is just for the 250 high-
accuracy receivers that we have.
    Now, if you go ahead and you take a look at it, Mr. 
Carlisle said that there could be anywhere between 100,000 and 
750,000 high-accuracy RTK antennas. Our belief is that there is 
at least 750,000 to 1 million high-accuracy RTK receivers used 
in agriculture, used in construction, used in geography 
management. So you go and take those kind of numbers and you go 
and times it, basically it comes out to $1,600 per unit that it 
will cost in order to go through and retrofit it with this 
filter, go and take it times that $1 million--or, excuse me, 1 
million high-accuracy RTK GPSs that are out there in the 
marketplace.
    Mr. Carlisle. May I respond on the accuracy? The numbers I 
actually used were that the universe of devices could be about 
750,000 in the country. It is not entirely known exactly. It 
could be as high as a million. But in terms of the ones that 
actually have to be replaced or retrofitted, it is not going to 
be that entire universe. First of all, because a significant 
number of precision devices have already tested out in terms of 
being resilient, so that is 10 out of 38, or almost 25 percent.
    Second, many of these receivers are going to be used in 
areas which are going to be far away from anywhere our network 
is going to be, and, third, our--this is not a flash cut. We 
are going to be deploying our network over a period of 5 years. 
There will be a certain amount of exchange of devices that 
would take place in the ordinary course of business anyway. So 
that is how you get down to the 100,000 to maybe 200,000 number 
that you have to focus on and actually change out. Just to 
correct the record.
    Chairman Graves. I don't want to dominate the questions 
because we have got a lot of members here with questions, and I 
will save the rest of mine for the end of the hearing. But I do 
have one quick one for you, Mr. Carlisle, because the test 
results have revealed some significant interference in that 
upper 10 MHz band, and so you have proposed launching in the 
lower 10 for your service. My question to you is: Will you guys 
never use that upper 10----
    Mr. Carlisle. Well, we will certainly use----
    Chairman Graves [continuing]. Of GPS?
    Mr. Carlisle [continuing]. Continue to use it for satellite 
services. We have used it there for 15 years without any issue 
at all with GPS, and those satellite services provide services 
to public safety, oil and gas, all sorts of folks in the United 
States uses it. Our satellite services were used after 
Hurricane Katrina. After the tornadoes in Joplin, first 
responders had our units there. So we will continue to use the 
spectrum.
    We would like a continued dialogue as to whether or not we 
could ever commercially deploy that spectrum because then you 
do start to get into the issues that Mr. Taylor and Mr. Boykin 
have raised about aviation functions and the susceptibility of 
a larger number of GPS receivers, simply because more of them 
look into that spectrum. So you would need a longer 
conversation about that, but we are open to having that 
discussion, open to talking about alternatives.
    Chairman Graves. But right now, I mean, basically you are 
not using that upper bandwidth, you are just basically doing 
that, that is just the company has decided not to do it, there 
is no requirement for that, you could use it at any time?
    Mr. Carlisle. We would--let me be clear. The only issue 
that comes up down the road is if, you know, we deploy out in 
our network using the 10 MHz all the way down on the other end 
of the band. We can do our full deployment to 260 million 
people with that amount of spectrum. The issue is the number of 
devices, the amount of usage that ultimately goes on the 
network.
    That won't be a problem we have for at least 5 to 6 years. 
And in the meantime, you can either--you can skin that cat a 
lot of different ways. You can modify the way you are using 
your current spectrum, you can use the new spectrum in ways 
that are very different, much lower powers that would not raise 
an issue on interference. You could also look at swapping for 
alternative spectrum or something like that. There are a whole 
bunch of things that should be looked at before we--while we 
move forward on the lower 10, but--and also keep in mind our 
customers are retailers. They will have options in the 
marketplace, too. By that time other spectrum may very well 
have been brought online, and if they need more spectrum for 
their customers, they can go out and buy it from somebody else. 
So I think there are a lot of different ways to skin that cat 
down the road, and we are willing to talk with the government 
agencies and the GPS manufacturers about how we do that.
    Chairman Graves. I am worried about the future and this 
betting on the outcome that something is going to happen in the 
time frame between now and then. That worries me a great deal, 
that it isn't going to happen. I am going to yield to Ranking 
Member Velazquez.
    Ms. Velazquez. Thank you. Mr. Carlisle, if filtering 
technology is the solution to interference, are you aware of 
how much it will cost small firms because, after all, this is 
the Small Business Committee, and we are here because we 
understand that it could have a negative impact on small 
businesses. And I would like to know if--it is important for 
all of us to recognize that it is not just the cost of 
retrofitting but also if you took into account indirect costs, 
such as time and lost resources or use of equipment, if those 
were included in your calculation.
    Mr. Carlisle. Okay. Well, that is a very good question, and 
thank you for asking it because I think it highlights an 
important point there, in that filtering is not the only 
solution. Filtering is the solution for high-precision 
receivers, okay? For the vast number of small businesses who 
day-to-day only use consumer-level devices that aren't 
precision, moving down to the spectrum and lowering our power 
is going to address the issue for them.
    Now, for those small businesses who do use precision 
equipment, our very strongly held belief is it shouldn't cost 
them a cent. It shouldn't cost them a cent. We will be 
deploying our network in a way that they will have advanced 
notice of when--of where we will be and when we will be there. 
There will be time for them to work with their manufacturers to 
get alternatives, and the manufacturers really should be 
stepping forward on this. I don't think there is any question 
about that.
    Mr. Taylor in his testimony, has, you know, made statements 
that this was all of a sudden came up and wasn't anticipated, 
that our power levels were all of a sudden jumped up. We are 
operating at transmission levels, power levels that were 
approved in 2005. There have been years to address this issue.
    Ms. Velazquez. Okay. Thank you. Mr. Taylor, the DOD's 2008 
GPS standard encouraged filters for GPS devices. Can you please 
explain how exactly these filters minimize interference and 
whether you currently use these filters in your GPS devices?
    Mr. Taylor. First of all, we do not make much in the way of 
military GPS. We do a small amount of military GPS, so I cannot 
specifically address that question. From a more general 
aviation receiver point of view, we would be happy to look at 
filtering as a possible means of mitigating the risk associated 
with the spectrum challenges we are talking about.
    GPS is different from telecommunications. The way GPS 
works, the signal--I will not get technical, I promise. The 
signal is a broadband spread-out signal. We need, in order to 
reliably discriminate the information, we need to be able to 
see a broadband signal, so filtering limits that, and it will--
filtering will impact the performance of our receivers. I can't 
tell you today to what extent.
    Ms. Velazquez. Okay. Mr. Carlisle, I understand the updated 
plan includes a design to eventually expand operations to the 
entire spectrum band, yet no details have been provided. Does 
the company have a timetable for this expansion and how will 
this affect GPS?
    Mr. Carlisle. We won't need additional capacity, as I said 
earlier, for at least 5 to 6 years, and so I think that is the 
outside timetable. And as I said, there are many alternatives 
that we would want to consider to see what was commercially 
reasonable and safe.
    Ms. Velazquez. Your company believes that its plan can 
increase coverage to at least 260 million people by the end of 
2015. In light of our current economic conditions, what role do 
you see your company's expanded wireless broadband network 
playing in job creation?
    Mr. Carlisle. I think it will play a significant role in 
it. Our invest--to build that network, you have to plow $9 
billion into the American economy. We have already spent a 
billion dollars in American technology to put our satellites 
up. That was with Boeing in Washington State and Harris in 
Florida. In order to achieve a network build like this, you 
have to spend a tremendous amount of money all across the 
country. Wherever you put a tower up, that is folks from your 
vendors, that is contractors, that is small business people 
providing that service, and then it is contractors and small 
business people providing the maintenance going forward. So we 
have estimated very conservatively that the impact of our 
investment on the American economy is 15,000 jobs supported a 
year for each of the 5 years of the build-out. Following that, 
each one of our business partners, because they don't have to 
spend money on owning and maintaining their own network, can 
plow that money into their own retail operations and hire jobs 
there.
    Ms. Velazquez. Okay. My question to the other three 
witnesses, the FCC believes that LightSquared's proposed 
network is going to benefit and have a positive impact on 
broadband access for rural small businesses, but we also know 
that existing GPS technology will be harmed. So my question to 
the three witnesses is, how do you recommend that we proceed 
going forward? Should an innovative idea be outright rejected 
without any real attempts to find a technical solution? Mr. 
Boykin?
    Mr. Boykin. Thank you, ma'am. And obviously we don't want 
to withhold any technology. Technology has led our economy. I 
will go back to--I am starting to sound like a broken record 
here. We need to do some testing. Things aren't always as they 
appear to be in the RF spectrum, and I will point back to the 
fact that the original test had one base station. I pointed out 
earlier, I used to work for Motorola. Motorola was not only the 
company that designed land mobile radio in the beginning, 
Motorola is the company that invented cellular technology with 
the 800 MHz system Mr. Carlisle referred to. Those experiences 
at Motorola taught me that when you get two or more radios in 
close proximity, things get different, and you will note that 
some of these tests were done with one radio in an anechoic 
chamber, a noise-free chamber. We need to put a couple of base 
stations out there, a couple of handsets, and I will offer up 
my airplane, if somebody wants to chip in for the gas. I would 
be happy to fly out to New Mexico, it is a beautiful State, and 
fly over and make sure that this thing actually works.
    Ms. Velazquez. Mr. Greene.
    Mr. Greene. Thank you. I concur with the rest of the group 
that the fact that we need to do some additional testing. And 
being a Cubs fan, and knowing that their spring training 
happens out in springtime out in Arizona, I would be happy to 
go out there and help out in any possible way that I can.
    However, definitely some more testing needs to be made. We 
feel like broadband Internet will bring an exceptional increase 
to our business perspective as well, but if we don't have--if 
we don't have the GPS to collect the data, there will be no 
data to transfer into in order to do more processing.
    Mr. Taylor. Again, we all agree that we need more broadband 
services in the country, no doubt, but from the aviation 
community's point of view it has taken decades, decades of a 
complicated interaction between receivers, GPS constellation, 
ground infrastructure, to come with something that is robust 
enough to be safe, the safety of life for people to fly safely. 
And one or two flight tests will be fun, but it will not answer 
the question, and I cannot tell you there is a fast answer for 
this. I think it is going to take time and analysis and 
interaction. I cannot see any other answer, I am afraid.
    Ms. Velazquez. Mr. Carlisle, what is wrong with testing?
    Mr. Carlisle. There is nothing wrong with testing, and in 
fact we are fully supportive of the further testing that NTIA 
asked for, but I am not sure the background materials Mr. 
Taylor has read--but frankly, there has been a more 
comprehensive testing of this issue than any other interference 
issue ever presented to the GP--to the FCC. There were 130 
devices tested in eight independent labs over a series of 
months by an industry group that had 37 of the Nation's top GPS 
engineers on it. That was just the industry testing. There were 
dozens of devices tested in New Mexico at Holloman Air Force 
Base by the U.S. Air Force. Furthermore, there were devices 
tested by the FAA and the Jet Propulsion Laboratory. Moreover, 
RTCA, their GPS group ran an analysis of the minimum 
performance standards against our signal, and that analysis is 
continuing to be done by FAA. So we have no issue with there 
being further testing to make sure we are absolutely safe on 
safety of life, but let's not ignore the fact, there has been 
an awful lot of testing already and analysis.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Graves. Mr. Schilling.
    Mr. Schilling. Thank you, Mr. Chairman. Just quickly, a 
couple of things. I guess I will go to Mr. Carlisle. If the 
retrofit replacement of the GPS receivers in the market, if you 
have to do a retrofit, will you guys be paying for that or will 
that be the person that is having the retrofit done, say a 
farmer, for example?
    Mr. Carlisle. That is a very important question, because 
for 9 months what the GPS manufacturers have done is they have 
said there is only two parties in this debate. There is the 
LightSquared network and there are the users of GPS who are 
going to be affected by it. They have conveniently left 
themselves out of the equation.
    Again, I don't think the users should have to pay a cent. 
We have already paid, and the total value of our commitments is 
over $160 million at this point to solve the problem for the 
vast majority of consumer devices. For these precision devices, 
where there really is no solution that we can put on our 
transmissions except to abandon the band entirely, we think 
given we are talking about 100- to 200,000 devices, maybe a few 
more than that, but that is the order of magnitude we are 
talking about, and that our power levels have been set for 6 
years, that that is the right outcome there.
    Mr. Schilling. Okay, very good. Thank you. Now I want to go 
to Rick Greene. A couple--I come from a large agricultural 
area. One of the things, have you guys done any looks at maybe 
like if things do need to be switched around, how long a 
tractor will have to be down, you know, how that will affect 
like a single tractor versus a large family farm?
    Mr. Greene. I haven't put any numbers per se, but one of 
the things with agriculture, it is very time sensitive, and it 
is one of those things where if we can't get to everybody by 
springtime, then a producer could go and have the option--well, 
I have got--a producer could go and see a projected downtime 
of--well, let me just give you an example.
    So in the State of Missouri we have 1 million acres 
underneath high-accuracy RTK coverage, okay? If you go and look 
at 180 bushels per acre times $7 corn, say for instance those 
acres don't go through and get planted, that will be $1.26 
billion that the producers will have lost that year, just for 
our 1 million acres that we have in the State of Missouri.
    Mr. Schilling. Okay, that is a lot of corn. Okay, very 
good. That is all the questions I have. I yield back my time, 
Chairman.
    Chairman Graves. Mr. West.
    Mr. West. Thank you, Mr. Chairman, and Ranking Member. My 
question, Mr. Carlisle, and I guess I will take it into a 
little bit different direction. You are talking about 
developing this out in rural communities, correct? I am very 
concerned, because when you start to look at a lot of military 
type of activity, military activity out around a lot of rural 
communities like NTC, National Training Center, Twentynine 
Palms, China Lake, impact areas and this type of thing, my 
question is: What type of testing, and what is your 
implementation plan? What have you done to work with the 
Department of Defense as far as aircraft, you know, 
helicopters, fixed wing, laser designating devices and, as 
well, as smart munitions, because I think it would be a bad day 
for small businesses and communities if that spectrum were to 
somehow interfere with a training exercise and all of a sudden 
a smart munition ends up somewhere where it is not supposed to 
be.
    Mr. Carlisle. Thank you for your question. We have actually 
been working with DOD since 2008 to coordinate the use of our 
spectrum, and with the OASD and NII group within the Pentagon, 
and in terms of the more recent identified issue with GPS 
receivers, which was really only brought up in September of 
2010, we have had extensive exchanges with U.S. Space Command 
about the use of GPS within the U.S. military, also with 
Northern Command.
    General Shelton's testimony before the House Armed Services 
Committee a few weeks ago quite accurately outlined the fact 
that, well, you know, you have got to train the way you are 
going to fight, and so we have to be using the same equipment 
here as we are using over there. The fact is that we know where 
the training facilities are. We know where the proving grounds 
are. Today we operate under a very significant requirement to 
limit our power near air fields and near navigable waterways. 
It limits our power significantly in order to avoid any 
interference with aircraft or maritime receivers in our band.
    You can extend those operating limits to base stations we 
might put near military bases in order to avoid that 
interference, because you know where the activity is going on. 
That is one thing you can do. There are other options.
    Mr. West. Well, then my question is: Have we actually put 
some of these towers out there and run some tests on this 
with--across the spectrum with different types of aircraft and 
munitions to make sure that we are certified?
    Mr. Carlisle. The U.S. Air Force ran a classified testing 
of military receivers in New Mexico in April of this last year. 
Those results are classified. Our cleared consultants have not 
seen them, but we would assume they have run that testing.
    Now, they ran it under our old business plan which was to 
start closest to GPS, and that is part of the reason there was 
a reason for further testing now, was to make sure that the 
lower 10 option works for those.
    Mr. West. And for the rest of the panel, I guess the 
question is when was the first time that you all really heard 
about this impact or potential interference on the GPS system? 
This kind of like surprised us, that we should just be 
restrained to birthdays?
    Mr. Boykin. Well, I am not sure about birthdays Congressman 
West, but I can tell you that like a lot of issues that come up 
in public policy, we had a land development issue next to our 
airport that we learned about by reading about it in the 
Washington Business Journal. We learned about this by reading 
about it in the newspaper.
    I understand that the most recent application to the FCC 
over the Thanksgiving weekend last year, literally was over the 
Thanksgiving weekend, and the public notice came out with a 10-
day turnover, the Thanksgiving holiday, which having done a lot 
of business with the Federal Government I find pretty speedy. 
But our first indication of this was strictly out in the public 
area--arena.
    Mr. Greene. Same thing here. We basically first heard about 
it in the public arena probably in the March or April time 
frame. And then from there, it was quite simply kind of 
watching the news to see as this thing progresses.
    Mr. Taylor. Same answer, I am afraid. It has been less than 
a year, and just been trying to keep up with it as reports 
appear in the press. We have more recently been contacted by 
the FAA and by the military to provide receivers for testing. 
So we became involved in that way, but quite recently.
    Mr. Carlisle. May I say when we first learned it? I will be 
very quick. We first learned of it in September of 2010 when 
the GPS manufacturers brought it to the attention of the FCC. 
We have actually have been working GPS interference issues with 
the GPS community since 2002 when we reached an agreement with 
them to limit our emissions into their band. So we have a cliff 
on our spectrum, there are filters in our transmitters that 
stop our signal from leaking into GPS.
    The issue that was--and there was no problem with that 
agreement for 8 years. There is still no problem with that 
agreement. All the equipment tested out the way it should. The 
issue that was raised in September 2010, much to our surprise 
as well as everybody else's here, was that the GPS receivers 
look well into our band. So it doesn't really matter if we are 
limiting our signal if we are operating within our band within 
our authorized frequencies. They are looking at it and can be 
overloaded. So that is when we learned of it and we have been 
dealing with it since then, too.
    Mr. West. Thank you, Mr. Chairman. I yield back.
    Chairman Graves. Ms. Herrera Beutler. Mr. Hanna.
    Mr. Hanna. What will it cost to retrofit--not retrofit, but 
for new devices, devices not thought of or built yet to 
accommodate your bandwidth?
    Mr. Carlisle. It depends on the device. If you are talking 
about cellular phones where you have got millions of these 
devices and you can build at a very high level of volume, you 
are talking about filters that cost less than a nickel that 
exist today that can go into this.
    I think there was some ambiguity, or nobody really knew how 
expensive it would be to develop a filter for precision 
devices, which are really the hardest ones to deal with. Well, 
we now know you can deal with precision receivers that are on 
the market today and also sold to government agencies and 
surveyors, and all sorts of people use them, for $6. So going 
forward, this is a very small incremental cost to deal with it.
    Mr. Hanna. And you estimate that you will be able to 
provide Internet service to another 50 billion people in rural 
communities?
    Mr. Carlisle. Is that on top of the 260 million that we are 
required to?
    Mr. Hanna. Yes.
    Mr. Carlisle. Absolutely. We have already struck deals with 
several rural companies that we have the potential to go 
outside of our footprint. That is Cellular South, SI Wireless 
in southern Illinois. And just today we announced a deal with a 
company that plans to deploy in towns down to 10,000 people or 
less, that will reach out to areas that have been historically 
underserved. We may not have a regulatory requirement to serve 
above those 260 million people, but it is good business to do 
it and we should be doing it.
    Mr. Hanna. And have you done studies on the potential 
growth from that, economic growth?
    Mr. Carlisle. I know there are studies out there that 
indicate broadband infrastructure investment is one of the 
majority determinants of economic growth. I grew up in a rural 
neighborhood that--where we had electromechanical switches 
until the 1980s in California. And I will tell you, the one 
thing that keeps people in rural communities is if they feel 
they have got economic opportunity there. They are not going to 
have that economic opportunity if you don't have the highway 
going out there. Same thing is they are not going to have that 
economic opportunity if you don't have the broadband 
infrastructure there today. It is just not going to happen. 
Leave aside issues like public safety, provision of medical 
services, and education.
    Mr. Hanna. Thank you, I yield back.
    Chairman Graves. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Mr. Carlisle, I would 
like to go back to one of your comments. You talked about the 
filters stopping leaking as you described it.
    Mr. Carlisle. Uh-huh.
    Mr. Tipton. Is that 100 percent? With the filters there is 
not going to be a problem?
    Mr. Carlisle. Yes, sir. That was confirmed in both the 
industry tests and the government testing. Both confirmed that 
our filters are doing exactly what they are supposed to be 
doing. They actually filter our signal down to a level that is 
a thousand times stricter than what the FCC requires for us. 
And that was a level, by the way, that the GPS industry put in 
2002 and asked us to agree to. So that is what we agreed to.
    Mr. Tipton. Okay. Great. I come from rural Colorado, and 
obviously support a lot of broadband being moved out into rural 
America. But we have a lot of problems right now, particularly 
for our small businesses that are struggling in terms of a lot 
of the costs. None more so, probably, than a lot of our farmers 
and other GPS users who are already struggling right now in our 
economy.
    The U.S. Census Bureau estimates that about 50 million 
people live in these rural areas. How many of these 50 million 
citizens that are in rural America right now would receive new 
broadband service? And additionally, can you tell us how many 
would be covered by LightSquared if you move forward with your 
operations?
    Mr. Carlisle. In terms of wireless service, they will get 
it the day we turn on and get our next-generation units out 
there. Remember, we have a satellite that covers 100 percent of 
the United States to 200 nautical miles offshore. And it 
reaches these devices. That is why we spent a billion dollars 
on it. We spent $250 million of that billion inventing 
technology that had never been built before. So the day we are 
out there----
    Mr. Tipton. Is that satellite, is that just a receiver that 
then transmits? Is the technology on the ground?
    Mr. Carlisle. Yes, it is a pipe. So you can put basically 
any kind of signal you need over it.
    And so that will operate at speeds that are approximate to 
what you get on 3G today. So you can do phone calls, emails, 
texts on it today.
    Now, when we roll out--now, the rollout of our 4G network, 
that is going to depend on the business deals we do and the 
opportunity out there. But I will say that we have had a 
significant amount of interest from rural wireless companies 
who don't see an alternative to being able to build out. On 
this issue, there was a 700 MHz for rural development that was 
put out there. And unfortunately, those carriers can't get 
enough of the volume to be able to attract the chip companies 
and the handset manufacturers to put those frequencies on their 
devices.
    So it has been very difficult for them to actually have an 
independent way of moving forward. And that is why entities 
like the Rural Cellular Association support LightSquared.
    Mr. Tipton. And I think that is an important point because 
it does get down to some economics. In your statement you 
claimed that the revised implementation plan will solve 
interference for 99.5 percent of GPS receivers. And making the 
assumption--this is obviously a big assumption--that your 
figures are completely accurate, I understand that .5 percent 
of the receivers you admit are affected by high-precision 
receivers used in agriculture, construction, and surveying.
    You stated today in your testimony that this .5 percent 
figure is actually 750,000 to, I believe, a million units. That 
is a lot of Americans that are going to potentially be 
negatively impacted by this implementation. How are we going to 
deal with that?
    Mr. Carlisle. To be clear about the number, I think 99.5 
percent is probably a liberal estimate of it. Actually, if you 
take the worst-case scenario of only 400 million devices in the 
universe, which seems to be the minimum that we have seen as a 
estimate, and 1 million precision devices being out there, 
which is the largest number we have ever seen estimated, it is 
.25 of a percent. So really the number should be 99.75 percent.
    But in terms of how we fix that, there are three factors 
which indicate that the full universe is not going to need to 
be replaced. First, a significant number of precision devices 
use different types of technology. Some use satellite 
technology to achieve high levels of precision. Some, like RTK, 
use terrestrial technology. So when you test these out you see 
different results. And about 10 out of 38 were fine. Now, the 
majority won't be. By fine, I mean they didn't suffer harmful 
interference under the strictest definition of ``harmful 
interference'' used by the GPS manufacturers.
    So not all of them are going to be affected. Not all of 
them are going to be used in close proximity to where we will 
be operating. Even in rural communities where we are deploying, 
we may only have the ground network in the denser areas rather 
than in the far fields, far away.
    And then third, it is not a flash cut. We will be deploying 
over 5 years and we will have an unprecedented level of 
transparency as to where we are going to be and when we are 
going to be there. So people will know well in advance. And a 
certain number of these devices are going to change out in the 
ordinary course of business anyway.
    So in terms of the cost, I think you start getting that 
portion, if you assume it is 750,000 or a million, is it 
300,000 devices, is it 200,000, is it 100,000? We have seen 
that estimate from some GPS manufacturers. I don't know, but it 
is not going to be the full universe. And we believe that cost 
is appropriately borne by the manufacturers.
    Mr. Tipton I yield back, Mr. Chairman. Thank you.
    Chairman Graves. Mr. Mulvaney has no questions?
    Mr. Mulvaney. No.
    Chairman Graves. Let the record show that is a first time. 
Mr. King?
    Mr. King. Thank you, Mr. Chairman. I appreciate you holding 
this hearing. It is something that needed to be and still needs 
to be aired out. And I find myself in one of those conflicting 
pieces of real estate that is very much impacted by the GPS 
guidance of our farm equipment and also can use a little more 
broadband.
    But I wanted to direct my first question to Mr. Greene, and 
that is the impact on precision farm equipment, GPS guidance. 
And as that was developed, I don't know how many years ago we 
are talking about, perhaps 10 years or so ago as it was put in 
place, do you have knowledge of any efforts that were made to 
look at the spectrum then? And do you have the basis by which 
the decisions were made to build out the ag guidance technology 
on that spectrum?
    Mr. Greene. Yes, I would be happy to address that issue. 
The agricultural industry looked at that kind of spectrum back 
in the, oh, I believe it was around the late nineties, early 
2000s area. And one of the things I have gotten from several 
manufacturers of GPS is that they were actually asked to have 
their spectrum in that area be movable, if you will. So if the 
company called Sky Terra at the time would like to go and 
change the OmniSTAR megahertz signal that it was operating it 
on, the company could go and move it from one side of the 
spectrum to the other side of the spectrum.
    Mr. King. And your perspective on this is that the spectrum 
that has been purchased by LightSquared, you disagree, I think, 
to where the overlap might be? Is that a fair characterization?
    Mr. Greene. Yes, that is correct.
    Mr. King. And if a decision were made then on where that 
bright line might be, rather than where that gray line might 
be, how would you respond to this? And that would be if a 
company or an entity purchases spectrum that they have a 
complete and full legal right to that spectrum aside from the 
definition of where that bright line versus gray line might be? 
Would you agree with that? Mr. Greene.
    Mr. Greene. Yes.
    Mr. King. Thank you. And then, so if there is to be 
mitigation of this problem that I sure hope does get resolved--
and the testimony that has been here and the dialogue about the 
filter that at least presumably can resolve this, what is your 
position on which side of this spectrum should pay for that 
technology? Which side of this argument should pay for that 
technology?
    Mr. Greene. You know, there is an old interference phrase 
that goes across the regular wireless network: First come, 
first served. And basically when you go and put a new frequency 
up on a tower, if your frequency interferes with somebody else, 
then you have to go ahead and remove your equipment or find an 
alternative way in order to resolve the issue.
    Mr. King. Provided that you own that spectrum, as you said 
earlier?
    Mr. Greene. Yes, correct.
    Mr. King. And aside from that, even with that argument, 
let's just say that some entity has the authority to make this 
decision clearly and they draw a bright line, and that bright 
line is someplace along the line with some of this GPS 
equipment that I want to keep operating, I want to solve this 
problem in the worst way, if that finds itself on a spectrum 
that is clearly and legally determined to be LightSquared's 
then you would say from a legal perspective it is up to then 
the ag industry to take care of the cost of the filtration?
    Mr. Greene. Well, I would say there is no clear-cut line on 
this. Like the other couple of gentlemen were saying, that 
frequencies have a tendency to go and bleed together. And 
testing out that interference and checking to see what is 
available is what the real key it.
    Mr. King. You would say you would apply the first come, 
first served to that area?
    Mr. Greene. That is correct.
    Mr. King. I am running out of time and I don't want to 
spend it all focused on you, Mr. Greene, but I appreciate that.
    I want to turn to Mr. Carlisle who has listened to all of 
this dialogue, and ask the 180-degree opposite of these 
questions. If the shoe is on the other foot and it is 
determined in a clear way that the GPS people are there with a 
spectrum that they have a claim to, whether it is a gray area 
or a bleedover or first-come, first-served, who then would you 
say should pay for the filtration? And I think you testified--I 
am going to guess this--that this problem can technologically 
be solved. Doesn't it sort down then to who writes the check to 
solve it?
    Mr. Carlisle. That is exactly right. And I would say if 
this were a case of our transmitter bleeding across to the GPS 
spectrum, into the spectrum that they are using that is Federal 
Government spectrum, by the way, that is used by the GPS 
manufacturers at no cost, if we are bleeding over there, then 
that would be our responsibility to solve. And we spent $9 
million developing the filters to solve that. There is a chart 
at the back of my testimony that shows this.
    If the question, though, is then are their receivers 
looking into our band, there is no principle of first come, 
first served recognized in the law. Certainly not in FCC 
regulations. FCC allows you to build any kind of receiver you 
want, but you have to take the risk if you are looking outside 
your band and if you have the effect of blocking authorized 
services, then you have no claim to protection. And by the way, 
this is recognized in the user manuals of many GPS devices.
    I have got an excerpt here from a Garmin G900X integrated 
cockpit GPS navigation device manual which says: This device 
complies with part 15 of the FCC rules--the rule I just 
mentioned. Operations subject to the following two conditions: 
Device may not cause harmful interference and this device must 
accept any interference received, including interference that 
may cause undesired operation.
    Mr. King. I appreciate that acknowledgement. I would just 
conclude with this question: Is either side of this argument 
looking to the taxpayers to pay the difference?
    Mr. Carlisle. Absolutely not.
    Mr. Greene. No.
    Mr. King. I appreciate that. Mr. Chairman, thank you. I 
yield back.
    Chairman Graves. Mr. Carlisle, as far as the testing goes, 
you guys have tested your upper bandwidth but you are still in 
the process of testing the lower bandwidth; correct? Those 
results are not in yet?
    Mr. Carlisle. To be clear, the technical working group 
testing, which was the industry testing for all classes of 
devices, the lower 10 was tested. So we have a full set of data 
for all 130 devices. The further testing that needed to be done 
was for classified receivers that were not tested on the lower 
10 in the independent government testing, and some additional 
validation testing as NTIA set out in its letter a couple of 
weeks ago.
    Chairman Graves. My next question--Mr. Taylor and Carlisle, 
you can comment too--you talk a lot about over the course of 
the next 5 or 6 years there is going to be normal changeout of 
devices, but in the aviation community because they are so 
expensive, because of certification issues out there, there is 
still a lot of older devices out there that are working--
working very well, and we hope work well into the future.
    But Mr. Taylor, can you comment on those? You know the ones 
I am talking about. The ones that came out in the nineties--
late nineties, early 2000s.
    Mr. Taylor. Yes. Yes, sir. Normal service life for 
commercial aviation equipment, minimum is 15 years; we are 
required to support equipment for 15 years. Often it lasts much 
longer than that. As you said, it is incredibly expensive to 
make a change to an aircraft, to change a critical system like 
a GPS. The larger the aircraft, the more complex the change.
    Those systems that predate this entire discussion are in 
the field in thousands. And I know thousands is not a big 
number compared to the numbers we are hearing in terms of 
equipments fielded here. But this is thousands that you care 
about. It is airplanes that you fly on every day. Many of them 
have equipment that was developed long before this debate 
started and to which no one knows the answers. I don't know the 
answer. I build it; I don't know the answer to its 
susceptibility. And that equipment will in normal course of 
business be in service for at least another 5 years, some of 
the older equipment. Some of it for much longer than that. It 
lasts for a long time and stays in service.
    On the spectrum, I just wanted to clarify something on the 
spectrum. The RTCAs as you said, the RTCA preliminary report, 
which is a quick report, said that if LightSquared stays at the 
lower 50 MHz of the lower spectrum, lower half of the lower 
spectrum at very reduced power, you just impinge or don't 
impinge on the standards to which new equipment is developed. 
Brand new equipment. If you go to the next 5 MHz of the lower 
band, its acquisition is affected, tracking might be affected. 
You go to the upper band, then acquisition and tracking is 
affected.
    RTCA said that of the full spectrum, there would be no GPS 
aviation service over the entire eastern United States and 
close to any major city where this system is operating. Today I 
heard for the first time again the lower 10 MHz is now the one 
that is contemplated. If the lower 10 MHz is used at even the 
reduced powers that we are discussing, RTCA says--I say--you 
will have problems with aviation GPS receivers, even the newest 
ones that are in service today. And who knows what the story is 
with the older ones?
    Mr. Carlisle. I would like to correct the record on a 
couple of things. First of all, on what RTCA found. What it 
found was that the lower 5 was cleared and that the next 5 MHz 
for tracking was likely fine, but there could be issues with 
acquisition, and further analysis was necessary. And the FAA is 
undertaking that further analysis.
    The RTCA report did say if we were using our upper 10 
megahertz then, that could impact aviation. But unfortunately, 
this issue continues to be conflated into our new proposals to 
move down to the lower 10 at the power levels we were 
authorized to do in 2005.
    The other point I would mention is on the aviation 
receivers and whether the older ones are better than the newer 
ones. One thing we found through the testing process is months 
and months and months ago, when we were at the very beginning 
of this, I think we like other people just assumed, well, this 
has got to be old GPS receivers. It is old technology. 
Certainly the newer technology is better.
    Well, what we found out was that wasn't actually the case. 
Older technology actually is in some cases less susceptible to 
this kind of interference because it is not as wide open. The 
GPS industry has moved further and further into more and more 
precise equipment which requires you to pick up more GPS energy 
and requires them to look further and further into our band.
    And I am happy to get further follow-up information on this 
to make sure I am recalling correctly, but my understanding is 
the older RTCA standards which predated the currently 
applicable ones are actually less open and will have less wide 
open receivers than the ones that are currently authorized 
under the current standard. And that is the one that is being 
analyzed today. But I will provide follow-up information on 
that to make sure that is correct.
    Chairman Graves. Mr. Boykin, did you have a comment?
    Mr. Boykin. Far be it for me to spoil a really good party, 
but in fact I am following along with the RTCA paper and Mr. 
Carlisle is exactly accurate in his comments about that. But 
what it points out there is that there is a small margin for 
error. That same paper points out that traditionally, GPS being 
an aviation safety service, the analysis includes a six-decibel 
safety margin as standard practice.
    I am starting to see numbers here that are getting very 
small and very small safety margin. So my comment to that would 
be back to the same comment that we started with: A significant 
amount of testing that still needs to be done. And as my 
colleague from the GPS manufacturer said, that isn't going to 
be taken lightly and isn't going to be done tomorrow.
    Chairman Graves. Mr. Greene, I will give you the last word.
    Mr. Greene. Well, we all know how much wireless Internet to 
rural areas as well as GPS is to the rest of the country, and 
how much of an economic impact. And like to go and follow 
everybody else and say that, you know what, more testing does 
need to be done, and I hope we don't jump into a situation that 
gets everybody in trouble in the end.
    Chairman Graves. I thank you all for participating today. 
The Committee is going to very closely follow the action of the 
FCC in the LightSquared proposal and I plan to send a letter to 
the FCC reinforcing the need for comprehensive tests of all 
types of devices to ensure that there isn't going to be any 
interference for small business GPS users.
    With that, I would ask unanimous consent that all members 
have 5 legislative days to submit statements and supporting 
materials for the record. Seeing no objection, it is so 
ordered.
    [The information follows:]
    Chairman Graves. And with that, the hearing is adjourned.
    [Whereupon, at 2:30 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1500A.001
    
    [GRAPHIC] [TIFF OMITTED] T1500A.002
    
    [GRAPHIC] [TIFF OMITTED] T1500A.003
    
    [GRAPHIC] [TIFF OMITTED] T1500A.004
    
    [GRAPHIC] [TIFF OMITTED] T1500A.005
    
    [GRAPHIC] [TIFF OMITTED] T1500A.006
    
    [GRAPHIC] [TIFF OMITTED] T1500A.007
    
    [GRAPHIC] [TIFF OMITTED] T1500A.008
    
    [GRAPHIC] [TIFF OMITTED] T1500A.009
    
    [GRAPHIC] [TIFF OMITTED] T1500A.010
    
    [GRAPHIC] [TIFF OMITTED] T1500A.011
    
    [GRAPHIC] [TIFF OMITTED] T1500A.012
    
    [GRAPHIC] [TIFF OMITTED] T1500A.013
    
    [GRAPHIC] [TIFF OMITTED] T1500A.014
    
    [GRAPHIC] [TIFF OMITTED] T1500A.015
    
    [GRAPHIC] [TIFF OMITTED] T1500A.016
    
    [GRAPHIC] [TIFF OMITTED] T1500A.017
    
    [GRAPHIC] [TIFF OMITTED] T1500A.018
    
    [GRAPHIC] [TIFF OMITTED] T1500A.019
    
    [GRAPHIC] [TIFF OMITTED] T1500A.020
    
    [GRAPHIC] [TIFF OMITTED] T1500A.021
    
    [GRAPHIC] [TIFF OMITTED] T1500A.022
    
    [GRAPHIC] [TIFF OMITTED] T1500A.023
    
    [GRAPHIC] [TIFF OMITTED] T1500A.024
    
    [GRAPHIC] [TIFF OMITTED] T1500A.025
    
    [GRAPHIC] [TIFF OMITTED] T1500A.026
    
    [GRAPHIC] [TIFF OMITTED] T1500A.027
    
    [GRAPHIC] [TIFF OMITTED] T1500A.028
    
    [GRAPHIC] [TIFF OMITTED] T1500A.029
    
    [GRAPHIC] [TIFF OMITTED] T1500A.030
    
    [GRAPHIC] [TIFF OMITTED] T1500A.031
    
    [GRAPHIC] [TIFF OMITTED] T1500A.032
    
    [GRAPHIC] [TIFF OMITTED] T1500A.033
    
    [GRAPHIC] [TIFF OMITTED] T1500A.034
    
    [GRAPHIC] [TIFF OMITTED] T1500A.035
    
    [GRAPHIC] [TIFF OMITTED] T1500A.036
    
    [GRAPHIC] [TIFF OMITTED] T1500A.037
    
    [GRAPHIC] [TIFF OMITTED] T1500A.038
    
    [GRAPHIC] [TIFF OMITTED] T1500A.039
    
    [GRAPHIC] [TIFF OMITTED] T1500A.040
    
    [GRAPHIC] [TIFF OMITTED] T1500A.041
    
    [GRAPHIC] [TIFF OMITTED] T1500A.042
    
    [GRAPHIC] [TIFF OMITTED] T1500A.043
    
    [GRAPHIC] [TIFF OMITTED] T1500A.044
    
    [GRAPHIC] [TIFF OMITTED] T1500A.045
    
    [GRAPHIC] [TIFF OMITTED] T1500A.046
    
    [GRAPHIC] [TIFF OMITTED] T1500A.047
    
    [GRAPHIC] [TIFF OMITTED] T1500A.048
    
    [GRAPHIC] [TIFF OMITTED] T1500A.049
    
    [GRAPHIC] [TIFF OMITTED] T1500A.050
    
    [GRAPHIC] [TIFF OMITTED] T1500A.051
    
    [GRAPHIC] [TIFF OMITTED] T1500A.052
    
    [GRAPHIC] [TIFF OMITTED] T1500A.053
    
    [GRAPHIC] [TIFF OMITTED] T1500A.054
    
    [GRAPHIC] [TIFF OMITTED] T1500A.055
    
    [GRAPHIC] [TIFF OMITTED] T1500A.056
    
    [GRAPHIC] [TIFF OMITTED] T1500A.057
    
    [GRAPHIC] [TIFF OMITTED] T1500A.058
    
    [GRAPHIC] [TIFF OMITTED] T1500A.059
    
    [GRAPHIC] [TIFF OMITTED] T1500A.060
    
    [GRAPHIC] [TIFF OMITTED] T1500A.061
    
    [GRAPHIC] [TIFF OMITTED] T1500A.062
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
